                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A-05030007                                                                       Page 1 of 1



         We received allegations from the complainant1 that the subject2 committed misconduct when she
         misrepresented her expertise to NSF in a proposal submitted to N S F ~and when she attempted to
         get credit for the work of others, reporting this falsely to NSF.

         Our review included the NSF awarded proposal, the Annual Report, and numerous emails and other
         documents provided to us about this matter. We learned that the NSF award involved numerous
         individuals, including faculty members from more than one institution, senior personnel, post
         doctorates, graduate students, and technical programmers. The broad project encompassed many
         different collaborative parts. The information we received from the complainant showed that the
         collaborative relationship between the subject and the complainant and several of the complainant's
         colleagues had deteriorated to the point where the subject requested to be removed from the project.
         We noted that this was the result of several misunderstandings the developed between the subject
         and the complainant about expectations of the work to be done and of the sharing of credit.

         We found no evidence the subject misrepresented her expertise to NSF in the proposal submitted to
         NSF. Further, we found no evidence that the subject attempted to get credit for the work of others or
         to falsely report the work of others as hers to IVSF.

         This case is closed and no further action will be taken.




                                                                                                                 1I
JSF OIG Form 2 (1 1/02)
